43\

OBRIEN
HATFIELD
REESE,PA.
Criminal Dcfcn.., Attorney>

BayshoreCenter I511WestBayStreetISuire330ITampa,Florida33606

Office:813.228.6989
ILlneaen Espanol:813.390.2494

CERTIFICATE OF SERVICE
I, Rachael E. Reese, hereby certify that an original plus 10 copies of the
foregoing Motion for Leave to Proceed in Forma Pauperis and Petition for Writ of
Certiorari of Luther McKiver v. Secretary, Florida Department, et al, were sent via
Three Day Service to the United States Supreme Court, and 1 copy was sent via Three
Day Service and E-mail to the following parties listed below, this the 24th day of
August 2021:
Noel Francisco
Solicitor General of the United States
Room 5616
DEPARTMENT OF JUSTICE
950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Counsel for Respondent

Mark J.O'Brien,Esquire IVictoriaE.Hatfidd,Esquire IRachadE.Reese,Esquire IMichael S. Kennedy,Esquire IChristina L. LaMaida,Esquire
e: mjo@markjobrien.comI e: veh@rnarkjobrien.comIe: rer@markjobrien.com Ie: msk@markjobrien.com/ e: cll@markjobrien.com
w: markjobrien.com
Statewide and National Criminal Defense
Federal I State ITrials IAppeals IPost-Conviction Motions
Offices: Tampa I Orlando I Miami

OBRIEN Q)lHATFIELD
. REESE,P.A.
Criminal Defense Attorneys

BayshoreCenter I511West BayStreetISuite330 ITampa,Florida33606
Office:813.228.6989
ILineaen Espanol:813.390.2494

All parties required to be served have been served.
I further declare under penalty of perjury that the foregoing is true and correct.
This Certificate is executed on August 24, 2021.

R™

Rachael E. Reese, Esquire
O'BRIEN HATFIELD REESE, P.A.
511 West Bay Street
Suite 330
Tampa, Florida 33606
(813) 228-6989

rer@markjobrien.com
Subscribed and sworn to before me by the said Affiant on the date below
designated:

[seal]

Mark J.O'Brien,EsquireIVictoriaE.Hatfield,EsquireI RachaelE. Reese,EsquireIMichaelS. Kennedy,EsquireIChristinaL LaMaida,Esquire
e: mjo@markjobrien.comIe: veh@markjobrien.comI e: rer@markjobrien.comIe: msk@markjobrien.comIe: cll@markjobrien.com
w: markjobrien.com
Srarewide and National Criminal Defense
Federal I State I Trials IAppeals I Post-Conviction Motions
Offices: Tampa I Orlando I Miami

